Case 18-2541, Document 101-1, 09/10/2019, 2651139, Pagel of 3

18-2541-cv
Zhao v. United States Department of State

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York on the
10th day of September, two thousand nineteen.
Present:

RALPH K. WINTER,
ROSEMARY S. POOLER,
REENA RAGGI,
Circuit Judges.

WEN DONG ZHAO,
Plaintiff-Appellant,
v.

18-2541-cv

UNITED STATES DEPARTMENT OF STATE,
Defendant-Appellee.
For Appellant:

Wen Dong Zhao, pro se, Flushing, N.Y.

For Appellee:

Joseph A. Marutollo, Varuni Nelson, Rachel G. Balaban, Assistant
United States Attorneys, for Richard P. Donoghue, United States
Attorney for the Eastern District of New York, Brooklyn, N.Y.

Appeal from the United States District Court for the Eastern District of New York (Donnelly, J.).

Case 18-2541, Document 101-1, 09/10/2019, 2651139, Page2 of 3

ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of said District Court be and it hereby is AFFIRMED.
Plaintiff-Appellant Wen Dong Zhao appeals from the July 24, 2018 judgment of the
United States District Court for the Eastern District of New York (Donnelly, J.), granting the
government’s motion for summary judgment. We assume the parties’ familiarity with the
underlying facts, procedural history, and specification of issues for review.
Zhao primarily argues that the district court erred in granting the government’s motion
for summary judgment because (1) the government’s search terms in responding to his Freedom
of Information Act (“FOIA”) request were inadequate, (2) the government’s search was
inadequate because it should have contacted the United States Ambassador to Thailand and “the
Thai lady who received the documents,” and (3) the government’s search was “too narrow in
temporal scope.” Appellant’s Br. at 8-10. These arguments fail.
We review de novo a district court’s grant of summary judgment, “resolving all record
ambiguities and drawing all factual inferences in favor of the non-moving party.” ITC Ltd. v.
Punchgini, Inc., 482 F.3d 135, 145 (2d Cir. 2007). In order to prevail on a motion for summary
judgment in a FOIA case, the defending agency has the burden of showing that its search was
adequate and that any withheld documents fall within an exemption to the FOIA. See 5 U.S.C.
§ 552(a)(4)(B). “Affidavits or declarations supplying facts indicating that the agency has
conducted a thorough search and giving reasonably detailed explanations why any withheld
documents fall within an exemption are sufficient to sustain the agency’s burden.” Carney v.
U.S. Dep’t ofJustice, 19 F.3d 807, 812 (2d Cir. 1994) (footnote omitted). “[A]n agency’s search
need not be perfect, but rather need only be reasonable.” Grand Cent. P’ship, Inc. v. Cuomo, 166
F.3d 473, 489 (2d Cir. 1999).
First, the government submitted the sworn declaration of Eric F. Stein, the Director of the
Office of Information Programs and Services of the United States Department of State, who is
the official “immediately responsible for responding to [FOIA] requests.” App’x at 136. In his
declaration, Director Stein describes with reasonable specificity the search the government
conducted, including the search terms it employed. In particular, the government searched for
variations and iterations of Zhao’s name; “Bangkok,” where Zhao states he delivered the
materials; “Darryl N. Johnson,” the United States Ambassador to Thailand at the time Zhao
delivered the materials; and “Iraq War.” App’x at 140, 143. Zhao argues that the government
should have used the search terms “Saddam Hussein” as well as “any of the key words used in
the slogan by the United States in the Iraq War.” Appellant’s Br. at 10. But Zhao requested
documents “regarding the Iraq war”; his FOIA request did not mention Saddam Hussein. App’x
at 146. Additionally, Zhao’s brief does not clarify what he means by “the slogan by the United
States in the Iraq War.” The government’s search terms were reasonable.
Zhao failed to raise his second and third arguments before the district court; accordingly,
these arguments are waived. “Although we may exercise discretion to consider waived
arguments where necessary to avoid a manifest injustice,” we decline to do so here, where Zhao
has “proffer[ed] no reason for [his] failure to raise the arguments below.” In re Nortel Networks
Corp. Sec. Litig., 539 F.3d 129, 133 (2d Cir. 2008) (internal quotation marks omitted).

2

Case 18-2541, Document 101-1, 09/10/2019, 2651139, Page3 of 3

We have considered the remainder of Zhao’s arguments and find them to be without
merit. Accordingly, we hereby AFFIRM the district court’s judgment.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

3

Case 18-2541, Document 116, 11/14/2019, 2706432, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 14th day of November, two thousand and nineteen,
Before:

RALPH K. WINTER,
ROSEMARY S. POOLER,
REENA RAGGI,
Circuit Judges.

Wen Dong Zhao,

ORDER
Docket No. 18-2541

Plaintiff - Appellant,
v.
United States Department of State,
Defendant - Appellee.

Appellant, Wen Dong Zhao, having filed a petition for panel rehearing and the panel that
determined the appeal having considered the request,
IT IS HEREBY ORDERED that the petition is DENIED.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

Case l:16-cv-07108-AMD-RLM Document 33 Filed 07/23/18 Page 1 of 9 PagelD #: 242

FILED
IN CLERK'S OFFICE
US DISTRICT COURT ED.NLV*

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

★ JUL 2 3 20© W

t

X

BROOKLYN OFFICE

WEN DONG ZHAO,
Plaintiff,

MEMORANDUM
DECISION AND ORDER

- against -

16-CV-7108 (AMD) (RLM)

U.S. DEPARTMENT OF STATE,
Defendant.
- X
ANN M. DONNELLY, United States District Judge:
The plaintiff Wen Dong Zhao brings this action under the Freedom of Information Act
(“FOIA”), 5 U.S.C. §552, seeking documents from the defendant United States Department of
State. The plaintiff claims that he submitted “research documents” to the United States Embassy
in Bangkok, Thailand in 2003. More than 13 years later, he submitted a FOIA request for his
own documents. The State Department conducted an extensive search and informed the plaintiff
that it found no responsive records. The defendant now moves for summary judgment on the
ground that it conducted a reasonable search, and has met its obligations under FOIA. For the
following reasons, the defendant’s motion for summary judgment is granted.
BACKGROUND
I.

Procedural History
On October 12,2016, the plaintiff made a FOIA request to the State Department for

research materials that he claims he submitted to the U.S. Embassy in 2003.' (ECF No. 25 ^ 1;

1 The plaintiff faxed this identical FOIA request to the State Department again on November 2,2016. (ECF No. 25
H 4; ECF No. 24-1 at 5.)

1

Case l:16-cv-07108-AMD-RLM Document 33 Filed 07/23/18 Page 2 of 9 PagelD #: 243

ECF No. 24-1 at 1.)2 The plaintiff explained in his request that on four separate occasions
between January 2003 and August 2003, he delivered his research materials regarding the Iraq
War to the U.S. Embassy. (ECF No. 25 2; ECF No. 24-1 at 1.) In a response dated October
25,2016, the State Department explained that it had assigned a case number to his request and
would notify him when responsive documents had been identified. (ECF No. 25 If 3; ECF No.
24-1 at 3.)3 On November 21,2016, the plaintiff appealed to the State Department, claiming that
it had failed to respond to his FOIA request (ECF No. 25 K 5; ECF No. 24-1 at 6); on December
8,2016, the State Department responded that it was still processing the plaintiffs request (ECF
No. 25 6; ECF No. 24-1 at 7)4, and thus, the plaintiffs appeal was not appropriate. On March
31,2017, the State Department sent the plaintiff a letter informing him that it had completed its
search for the requested documents, and that there were no responsive documents. (ECF No. 25
U 38; ECF No. 24-1 at 8.) On December 27,2016, the plaintiff brought this action seeking the
requested documents under FOIA. (ECF No. 1.)
II.

The State Department’s Search
The State Department reviewed the plaintiffs request and determined that the following

offices or record systems might have responsive documents: the Bureau of Near Eastern Affairs,
which advises the Secretary of State on matters in North Africa and the Middle East (ECF No. 25
H 12); the U.S. Embassy; the Retired Records Inventory Management System; and the State
Archiving System. (Id. ^ 9.)
At the Bureau of Near Eastern Affairs (“NEA”), an NEA Area Management Officer who
2 The plaintiff does not dispute the facts detailed in the defendant’s 56.1 statement (see ECF No. 32); thus, under
Local Civil Rule 56.1(c), the facts in the 56.1 statement are deemed admitted.
3 The plaintiff denies that he received the October 25,2016 letter, but does not deny that the State Department
responded. (ECF No. 32 ^ 3.)
4 The plaintiff denies that the State Department sent the December 8,2016 response. (ECF No. 32 % 6.)
2

Case l:16-cv-07108-AMD-RLM Document 33 Filed 07/23/18 Page 3 of 9 PagelD #: 244

was knowledgeable about the plaintiffs FOIA request determined that the requested records
could be in the Office of Regional and Multilateral Affairs (“RMA”) or the Office of Iraq
Affairs. (ECF No. 25 ^113.) The Officer identified these offices as potential sources because the
RMA coordinates NEA briefing materials for the State Department concerning the Near East,
and the Office of Iraq Affairs monitors developments in Iraq. (Id.) Individuals at both offices
searched electronic files using the search terms “Wen Dong Zhao,” “Wen,” “Dong,” “Zhao,” and
“Iraq War,” so that the searches would find documents if they included any one of these terms.
(Id. ffl| 14-15; ECF No. 24 Iff 16-17.) The offices also searched Iraq War paper files from
January 2003 through August 2003. (ECF No. 25 ffl[ 14-15.) Neither office located any
responsive documents. (Id. K 16)
At the U.S. Embassy, the Consul General and an Information Management Officer
determined that the Regional Security Office (“RSO”) and the Engineering Service Center
(“ESC”) might have responsive records. (Id. K 18.) Staff members searched the RSO electronic
files using the search terms “Wen Dong Zhao,” “Zhao Wen Dong,” “Wen,” “Dong,” and
“Zhao.” (Id. H 21; ECF No. 241f 21.) The ESC also searched its electronic files, using the same
search terms except for “Zhao Wen Dong.” (ECF No. 25 U 24.) Both offices searched their
paper files for responsive documents. (Id. HH 21,24.) These searches were not limited by date
and applied to records from 2002 and later. (Id.

22, 24.) The RSO’s and ESC’s searches

yielded no documents responsive to the plaintiffs FOIA request. (Id. U 25.)
The Retired Records Inventory Management System (“RIMS”) tracks retired records and
allows analysts to search the content of the retired files’ manifests and locate particular
documents in retired file boxes. (ECF No. 25 1f 27.) A State Department analyst who was
familiar with the plaintiffs request searched RIMS using the terms “Zhao” in conjunction with

3

Case l:16-cv-07108-AMD-RLM Document 33 Filed 07/23/18 Page 4 of 9 PagelD #: 245

“Bangkok,” “Wen Dong Zhao,” “Zhao Wen Dong,” and “Darryl N. Johnson” for documents
dated January 1, 2003 through August 31,2003. (ECF No. 25 128.) This search identified
seven boxes of retired paper files, which were manually reviewed. (Id.) No responsive materials
were located. (Id U 29.)
The State Archiving System (“SAS”) enables searches of millions of records that include
official copies of the following: correspondences with the White House, members of Congress,
and other federal agencies; cables between the State Department and Foreign Service posts;
position papers and reports; interoffice memoranda and memoranda of conversations; diplomatic
notes; and retired records. (Id.

30-31.) These records are generally fully text searchable, and

for those that are not—usually older documents—SAS searches the text of a reference index.
(Id.

32-33.) An analyst well-versed with SAS and familiar with the plaintiffs FOIA request

applied the search terms “Wen Dong Zhao;” and “Zhao” in conjunction with “Bangkok” on
documents dated January 1, 2003 through August 31,2003. (Id U 34.) Again, the search yielded
no responsive documents. (Id.)
The State Department would have considered the plaintiffs unsolicited research
materials “information involving no administrative action, policy decision, or special
compilations or research;” the materials were “temporary” records, which were likely destroyed
90 days after receipt. (Id.

35-36; ECF No. 23 at 13; ECF No. 28 at 5.)
DISCUSSION

Summary judgment is appropriate only if the parties’ submissions show that there is “no
genuine dispute as to any material fact,” and that the movant is therefore “entitled to judgment as
matter of law.” Fed. R. Civ. P. 56(a); see also Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
247-48 (1986). The movant has the “burden of showing the absence of any genuine dispute as to

4

Case l:16-cv-07108-AMD-RLM Document 33 Filed 07/23/18 Page 5 of 9 Page!D #: 246

a material fact.” McLee v. Chrysler Corp., 109 F.3d 130, 134 (2d Cir. 1997). “Once the moving
party has met this burden, the party opposing summary judgment must identify specific facts and
affirmative evidence that contradict those offered by the moving party to demonstrate that there
is a genuine issue for trial.” Ethelberth v. Choice Sec. Co., 91 F. Supp. 3d 339,349 (E.D.N.Y.
2015) (citing Celotex Corp. v. Catrett, 477 U.S. 317,324,106 S. Ct. 2548 (1986)). The non­
moving party “must offer some hard evidence,” not merely speculation, “showing that [its]
version of the events is not wholly fanciful.” Id. (quoting D ’Amico v. CityofN.Y., 132F.3d 145,
149 (2d Cir. 1998)). The court must resolve all ambiguities and draw all reasonable inferences in
favor of the non-moving party. Kaytor v. Elec. Boat Corp., 609 F.3d 537, 545 (2d Cir. 2010).
“Summary judgment is the preferred procedural vehicle for resolving FOIA disputes.”
Labella v. F.B.I., No. 11-0023CV, 2012 WL 948567, at *6 (E.D.N.Y. Mar. 19,2012) (citation
omitted). To secure summary judgment in a FOIA case, the defendant agency must show that it
conducted an adequate search and that any withheld documents fall within a FOIA exemption.
See Adamowicz v. I.R.S., 402 F. App’x 648, 650 (2d Cir. 2010) (summary order); Carney v. U.S.
Dep 7 ofJustice, 19 F.3d 807,812 (2d Cir. 1994). An agency conducts an adequate search where
its search is “reasonably designed to identify and locate responsive documents.” Davis v. U.S.
Dep’t ofHomeland Sec., No. 11-203CV, 2013 WL 3288418, at *6 (E.D.N.Y. June 27,2013)
(quoting Garcia v. U.S. Dep’t ofJustice, Office ofInfo. & Privacy, 181 F. Supp. 2d 356, 368
(S.D.N.Y. 2002)); Sussman v. U.S. Dep 7 ofJustice, No. 03-3618CV, 2006 WL 2850608, at *10
(E.D.N.Y. Sept. 30, 2006) (The adequacy of a search turns on “whether the agency’s search was
reasonably calculated to discover the requested documents.”) (citation omitted). An agency is
“not expected to take extraordinary measures to find the requested records,” nor is it obligated to
“search every record system” or use “all possible variants of a particular name or search term.”

5

Case l:16-cv-07108-AMD-RLM Document 33 Filed 07/23/18 Page 6 of 9 PagelD #: 247

Contiv. U.S. Dep't of Homeland Sec., No. 12-5827CV, 2014 WL 1274517, at **11, 15
(S.D.N.Y. Mar. 24,2014) (citation omitted).
In a FOIA action, the district court may grant summary judgment in favor of an agency
“on the basis of agency affidavits” if they are (1) reasonably detailed rather than “merely
conclusory” and (2) “not called into question by contradictory evidence in the record or by
evidence of agency bad faith.” Grand Cent. P’ship., Inc. v. Cuomo, 166 F.3d 473, 478 (2d Cir.
1999) (quoting Gallant v. NLRB, 26 F.3d 168,171 (D.C. Cir. 1994)). “[A]n agency affidavit or
declaration must describe in reasonable detail the scope of the search and the search terms or
methods employed.” Davis, 2013 WL 3288418, *6 (citations omitted). Specifically, the
affidavit “should identify the searched files and describe at least generally structure of the
agency’s file system which renders any further search unlikely to disclose additional relevant
information.” Katzman v. CIA, 903 F. Supp. 434, 438 (E.D.N.Y. 1995) (internal quotation marks
and citation omitted). Agency affidavits are also presumed to be submitted in good faith, Grand
Cent. P’ship, Inc., 166 F.3d at 489, but can be rebutted by tangible evidence of bad faith, see
Carney, 19 F.3d at 813. Bare allegations and speculation of bad faith cannot rebut the good faith
presumption. Conti, 2014 WL 1274517, at *26.
The plaintiff does not dispute the defendant’s description of the various searches it
undertook. Rather, he claims that the State Department should have used specific search terms
and should have produced a video tape of him delivering his research materials in 2003. Neither
argument is persuasive.
The plaintiff argues that the defendant should have employed different search terms like
“Zhao Wen Dong,” “Saddam Hussein,” and “any of the key words used in the slogan by [the]

6

Case l:16-cv-07108-AMD-RLM Document 33 Filed 07/23/18 Page 7 of 9 PagelD #: 248

United States in [the] Iraq War.”5 (ECF No. 27 at 5.) In fact, the State Department did search
for “Zhao Wen Dong” in RSO and RIMS, and the ESC, the RMA, and the Office of Iraq Affairs
searched for different iterations of the plaintiffs name, which would have captured any
document with the term “Zhao Wen Dong.” (ECF No. 25

14—15, 21, 24, 28; ECF No. 24 ^

21.) In any event, the State Department is not obligated to use “all possible variants of a
particular name or search term.” Conti, 2014 WL 1274517, at *15.
Nor has the plaintiff shown that the State Department’s failure to search for “Saddam
Hussein” and key words from the “slogan by [the] United States in [the] Iraq War” was
unreasonable. The State Department searched for documents that included several iterations of
the plaintiffs name, “Bangkok” (where he claims to have delivered the materials), and “Iraq
War.” (ECF No. 25

14-15, 21,24,28, 34.) The plaintiff did not mention Saddam Hussein in

his FOIA request or detail the contents of the materials. Rather, he stated only that the materials
were “regarding the Iraq war.” (ECF No. 24-1 at 1.) Given the plaintiffs own description of
what he wanted, the State Department’s search terms and methods were “reasonably designed to
identify and locate responsive documents.” Davis v. U.S. Dep 7 of Homeland Security, No. 11203CV, 2014 WL 4101477, at **1-2 (E.D.N.Y. Aug. 14,2014) (Search terms that “included the
city names and airport codes identified in plaintiffs request as well as plaintiffs name and
identifying information” were reasonably tailored.).
The plaintiff also faults the State Department’s for failing “to provide the videos of the
security cameras ... showing [that] Plaintiff had submitted his research documents to the [U.S.

3 The plaintiff does not give any specifics about the content of this slogan. The plaintiff states in his affidavit that:
“America uses ‘Saddam Hussein was dead and they didn’t need to give their life [sic] to Saddam Hussein anymore’
as the advertisement” (ECF 27-1 K 16), but does not clarify whether this “advertisement” is the slogan referenced in
the brief. Even assuming it is, the plaintiff does not identify particular search terms other than “Saddam Hussein,”
which he already asserts should have been a term.

7

Case l:16-cv-07108-AMD-RLM Document 33 Filed 07/23/18 Page 8 of 9 PagelD #: 249

Embassy].” (ECF No. 27 at 5-6.) The plaintiff made no such request; he requested only his
research materials. (ECF No. 24-1 at 1.) A plaintiff is “not entitled to documents outside the
scope of his request,” Conti, 2014 WL 1274517, at *27.6
The plaintiff makes a general challenge to the adequacy of the State Department’s search
and Eric Stein’s declaration, but does not rebut the presumption that the declaration was made in
good faith or present any contradictory evidence.7 (ECF No. 27 at 4.) The Stein Declaration
details the procedure that the defendant used to process the plaintiffs request, and identifies the
offices and systems were searched, the general structure of each office and system, who
conducted each search, and the search terms applied. (See ECF No. 24.) This “relatively
detailed and non-conclusory” declaration supports a grant of summary judgment. Davis, 2013
WL 3288418, at *6 (citation omitted).
The State Department has established that it performed an adequate search in response to
the plaintiffs FOIA request.
CONCLUSION
For the foregoing reasons, I grant the defendant’s motion for summary judgment. The
Clerk is respectfully directed to enter judgment in favor of the defendant, dismissing this case.

SO ORDERED.
s/Ann M. Donnelly
Ann M. Donnelly
United States District Judge

6 The State Department does not deny that the plaintiff delivered the research materials to the U.S. Embassy, but
submits that the materials were likely destroyed under the governing recordkeeping protocol. (ECF No. 28 at 5.)
7 Stein has been the Director of the Office of Information Programs and Services of the State Department since
January 22, 2017. (ECF No. 24 f 1.) He is the State Department official “immediately responsible for responding
to requests for records” under FOIA. (Id.)

8

Case l:16-cv-07108-AMD-RLM Document 33 Filed 07/23/18 Page 9 of 9 PagelD #: 250
.1

Dated: Brooklyn, New York
July 23,2018

■J

i

1

J

•:
!

9

i

